                           OFFICE O F INSPECTOR GENERAL
                          CORPORATION FOR NATIONAL AND
                               COMMUNITY SERVICE




                       RECOMMENDED IMPROVEMENTS T O THE
                        CORPORATION'S INTERNAL CONTROLS
                      FISCAL YEAR 2002 - MANAGEMENT LETTER

                                  Audit Report Number 03-02
                                       January 24,2003




                                            Prepared by:

                                            KPMG LLP
                                        2001 M Street, NW.
                                       Washington, D.C. 20036

                        For the Corporation for National and Community Service




This report was issued to Corporation management on May 7, 2003. Under the laws and
regulations governing audit follow up, the Corporation is to make final management decisions on
the report's findings and recommendations no later than November 7, 2003, and complete its
corrective actions by May 7,2004. Consequently, the reported findings do not necessarily represent
the final resolution of the issues presented.
                                                                                                   COKPOUATION

                                                                                                   FOR N A T I O N A L




                                    Office of Inspector General
                          Corporation for National and Community Service

               Recommended Improvements to the Corporation's Internal Controls
                           Fiscal Year 2002 - Management Letter
                                     Audit Report 03-02



Introduction

In accordance with the Government Corporation Control Act (31 U.S.C. $9 9101-lo), the Office of
Inspector General engaged KPMG LLP to audit the Corporation for National and Community Service's
fiscal year 2002 financial statements. Their audit, conducted in accordance with government auditing
standards, resulted in an unqualified opinion on the Corporation's financial statements. Audit Report 03-
01, Audit of the Corporation for National and Community Service's Fiscal Year 2002 Financial
Statements, describes the basis for the opinion as well as the reportable internal control conditions, and the
weaknesses noted in the approval of AmeriCorps national service positions.

The auditors also noted certain matters involving the control of financial reporting and other operational
matters that were not considered material weaknesses or reportable conditions. Their report discusses
these conditions and includes recommendations for corrective action. The Office of Inspector General has
reviewed the report and work papers supporting the auditors' conclusions and recommendations presented.

We provided a draft of this report to the Corporation for review and comment. The response is included as
Appendix B. In the response, the Corporation states that corrective action has been completed on many of
the conditions. The Corporation also indicated that it did not concur with some of the conditions noted
and presented additional work that has been conducted since the audit was completed. Follow-up action
will be completed during the audit that is currently in progress for fiscal year 2003. It will determine the
extent that corrective action has been implemented on all conditions reported.




                                                                                               Inspector General
                                                                                               1201 New York Avenue, NW
                                                                                               Washington, DC 20525
CORPORATION FOR NATIONAL AND COMMUNITY SERVICE


                Management Letter

                 Fiscal Year 2002
               CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
               Recommended Improvements to the Corporation's Internal Controls
                               Fiscal Year 2002 - Management Letter

                                          Table of Contents



                                                                                     Page

Transmittal Letter

Appendix A - Recommended Improvements to the Corporation's Internal Controls
Grants Management
A. 1   Oversight of OMB Circular A- 133 reporting should be improved

A.2    Site visit report monitoring should be improved

A.3    Grant close out procedures should be improved

A.4    Grant approval process should be improved

National Service Trust
B.l    The process of reviewing WBRS Reconciliation Reports should be strengthened

B.2    Member end-of-term forms are not always processed timely

B.3    Certain members inappropriately received service awards

B.4    Overpayment of education awards

B.5    The Corporation's methodology for calculating the Service Award Liability
       estimate needs to be reviewed
B.6    Improvements to Access Controls for the System for Programs, Agreements and
       National Service Participants (SPAN) need to be completed

B.7    Database Integrity for SPAN periodically needs systematic review

Accounts Receivable and Other Interest Revenue
C.l    The Corporation's methodology for aging receivables needs to be reviewed
Budgetary Resources and Net Position
D. 1    SF 133 Reporting should be improved
               CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
              Recommended Improvements To The Corporation's Internal Controls
                               Fiscal Year 2002 - Management Letter


                                    Table of Contents (continued)



                                                                                            Page



Compliance with Laws and Regulations                                                          10

E. 1   Procedures should be established to monitor compliance with NCSA       5 129 (b)
       (42 U.S.C. 12581 (b))

Human Resources

F. 1   Reliance cannot be placed on automated controls for VISTA volunteer payments

General EDP Control Review

G.1    Procedures should be established for the performance of Risk Assessments

G.2    The Business Continuity and Contingency Plan (BCCP) should be updated and
       tested

G.3    Specific policies, procedures, and controls should be established for transactions
       that flow across multiple systems.

Appendix B - Corporation Response
Appendix C - Status of Prior Year Management Letter Comments
               2001 M Street NW
               Washington, DC 20036




Inspector General and
Board of Directors
Corporation for National and Community Service:

We have audited the fiscal year 2002 financial statements of the Corporation for National and Community
Service, and have issued our report thereon, dated January 24,2003.

In planning and performing our audit, we considered the Corporation's internal control over financial
reporting by obtaining an understanding of internal controls. We determined whether internal controls had
been placed in operation, assessed control risk, and performed tests of controls in order to determine our
auditing procedures for the purpose of expressing our opinion on the financial statements, not to provide
assurance on internal control over financial reporting.

As a part of obtaining reasonable assurance about whether the Corporation's financial statements were free
of material misstatement, we performed tests of the Corporation's compliance with certain provisions of
laws and regulations, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts, and certain other laws and regulations. Our separate report
on internal control over financial reporting and on compliance with laws and regulations based on an audit
of the financial statements, performed in accordance with Government Auditing Standards, identified a
matter we considered to be a reportable condition.

During our audit, we also noted other matters involving internal control over financial reporting and other
operational matters that are not considered reportable conditions. These comments and recommendations
are presented in Appendix A to this letter for the Corporation's consideration, and are intended to improve
internal control over financial reporting or result in other operating efficiencies. To the extent prior year
comments have continuing relevance, we have incorporated these comments into those presented in
Appendix A. Our audit procedures were designed primarily to enable us to form an opinion on the
Corporation's financial statements, and therefore may not bring to light all weaknesses in policies or
procedures that may exist. We have not considered internal control since the date of our report.
The Corporation's response to our comments and recommendations are presented in Appendix B.
Appendix C presents the status of prior year management letter comments.

This report is intended solely for information and use of the Board of Directors and management of the
Corporation for National and Community Service and its Inspector General, and is not intended to be and
should not be used by anyone other than these specified parties.




January 24,2003
                                                                                           APPENDIX A
              CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
              Recommended Improvements to the Corporation's Internal Controls
                              Fiscal Year 2002 - Management Letter


Grants Management
A.l   Oversight of OMB Circular A-133 reporting should be improved
      The Corporation for National and Community Service (Corporation) has developed an audit
      tracking system to assist in monitoring receipt of grantees' OMB Circular A-133 audit reports, and
      take appropriate action where required to ensure resolution of noted instances of internal control
      weaknesses and noncompliance.

      The Corporation reviews the Federal Audit Clearinghouse (FAC) database during the award
      approval process to confirm whether the grantee submitted a single audit report to the FAC and
      whether there were any findings related to the Corporation. During our audit, we noted that for one
      of ten organizations selected for reviews for which the Corporation has oversight responsibilities,
      the Corporation awarded a grant for the budget period from September 30, 2002 to August 31,
      2003 to the grantee without reviewing the A-1 33 audit report for the years ended March 3 1, 2000
      and 2001. Additionally, for four of six grantees for which the Corporation conducted monitoring
      visits, the Executive Summary Reports prepared by the persons conducting the site visits did not
      include any reference to findings, although the audit reports on the FAC database were issued with
      a qualified opinion and contained findings related to Federal programs.

      The grantee submits the reports and data collection form to the FAC within the earlier of 30 days
      after receipt of the auditors' reports, or nine months after the end of the audit period. If there are
      findings related to the Corporation, or if the Corporation is designated as the oversight Federal
      agency, the FAC will forward the report to the Corporation to resolve audit findings related to its
      programs. The Corporation is required to issue its Management Decision within six months of
      receipt of the report, and must complete final actions within 12 months of receipt. During our
      audit, we noted for five of ten organizations for which CNCS has oversight, management decisions
      and final action related to the A-133 audit reports were not issued in a timely manner (i.e., six and
      twelve months, respectively).

      In order to ensure instances of grantee internal control weaknesses and noncompliance are timely
      identified and properly resolved, we recommend the Corporation:

          Strengthen controls over the A-133 review process to ensure that this procedure is being
          performed and properly documented in the Executive Summary Reports. Receipt of the Single
          Audit report for the prior year should be a condition precedent to the granting or
          consummating of any new awards. In cases where the Single Audit report was not submitted to
          the FAC database, the Corporation should receive it directly from the grantee. If the grantee
          has not completed its Single Audit and the Corporation decides to issue the grant award, the
          award document should include a special condition to inform the grantee that the report must
          be submitted within a specified time, otherwise the funding will be placed in a "HOLD" status.

          Ensure that proper documentation for all management decisions and final resolutions issued on
          A-133 audit reports is maintained in the grant file for future reference.



                                                                                                      (Continued)
                                                                                          APPENDIX A
              CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
              Recommended Improvements to the Corporation's Internal Controls
                              Fiscal Year 2002 - Management Letter


         Provide training to Grant Management staff, commissions and National Direct grantees on
         how to properly review and document the A-133 audit review. The training should include
         (i) an overview of A-1 33 requirements; (ii) how to use the FAC; and (iii) how to perform and
         document a complete review.

          Implement procedures to ensure that the grantees for which the Corporation has oversight
          responsibilities are submitting A-133 audit reports to the FAC in a timely manner.
A.2   Site visit report monitoring should be improved

      Internal control weaknesses identified during site visits are not always communicated to grantees
      on a timely basis. Additionally, corrective actions taken on the noted deficiencies are not always
      communicated to the Corporation on a timely basis. During our audit, we noted the following
      exceptions:

      State Administrative Standards visits:

          All six of the State Administrative Standards visit reports reviewed were not issued to the
          grantee in a timely manner (i.e., within six weeks).

          For two of three State Administrative Standards visit reports reviewed, the Corporation did not
          receive corrective action plans from the grantees that addressed the deficiencies that were
          identified during the monitoring visits.

          For six of the eight State Administrative Standards visits conducted during the period July 1,
          2002 through September 30, 2002, a site visit report had not been issued at the time of our
          review, although the submission date to the respective commission had passed.
      Grants Management staff monitoring:

          Two of five monitoring visit reports reviewed were not issued to the grantee in a timely
          manner (i.e., within 15 working days).

          For one of five monitoring visit reports reviewed, the corrective action plan was not received
          in a timely manner (i.e., within 30 days).

          For one of the five monitoring visit files reviewed, the monitoring visit report was not included
          in the file.
      National Senior Service Corps (NSSC) monitoring visits:

          Six of 12 NSSC monitoring visits reports were not issued within a timely manner (i.e., within
          20 days).

          For two of 12 NSSC monitoring reports reviewed, the Corporation did not receive corrective
          action plans or follow-up letters that addressed the deficiencies that were identified during the
          monitoring visit.

                                                       3                                             (Continued)
                                                                                          APPENDIX A
              CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
              Recommended Improvements to the Corporation's Internal Controls
                              Fiscal Year 2002 - Management Letter


         One of ten corrective action plans or follow-up letters were not received in a timely manner
         (i.e., within 20 days).

      In order to ensure appropriate and timely action is taken to resolve internal control weaknesses
      noted during monitoring visits, we recommend the Corporation:

          Continue to emphasize the importance of issuing monitoring reports and following up with
          grantees to obtain corrective action plans within the timeframe established by the Corporation;
          and

          Notify the grantees of the appropriate actions the Corporation intends to take to penalize those
          grantees that do not submit corrective action plans within the prescribed timelines.

A.3   Grant closeout procedures should be improved

      National Community Sewice Act (NCSA) Grants

      Although the Corporation has contracted with an independent contractor to assist in the closeout of
      grants that expired in prior years, no procedure has been established to enforce timely closeout of
      current grants expiring for NCSA. During our review of NCSA expired grants, we noted that none
      of the 3 1 grants initially selected were closed out within 180 days.

      We also noted that there is a lack of effective communication between the Accounting and
      Financial Management Services (AFMS) and the Grants Management Office (GMO) who are
      responsible for performing the closeout procedures. The GMO is responsible for ensuring that the
      grant is properly reconciled and submitting the closeout memo to AFMS to close the grant in
      Momentum and the Department of Health and Human Services Payment Management System
      (HHSPMS). AFMS is responsible for closing the grant and submitting a signed copy of the memo
      confirming that the grant was closed in Momentum and HHSPMS, or if not closed, identifying the
      reasons. The feedback that we received during our interviews with the GMO and AFMS staff was
      that no follow up or discussion is held between these two departments to resolve issues reported by
      AFMS. We reviewed 39 grant files and noted the following exceptions:

          For one NCSA grant, an additional obligation of $25,000 was recorded in Momentum in an
          attempt to reconcile the grant to HHSPMS.

          For another NCSA grant, the amount reported in HHSPMS did not agree with the amounts
          reported in Momentum. The grant award amount of $56,000 was never accepted by the
          grantee; however, the award amount was not deobligated in Momentum.

          For a third grant, the grant was closed with a payable balance of $24,750 in error. The grantee
          received an overpayment of $24,750, which was refunded during the closing of the grant.
          However, the rehnd was recorded as a payable in error, rather than being recorded as a
          decrease in grant expenses.




                                                                                                     (Continued)
                                                                                          APPENDIX A
              CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
              Recommended Improvements to the Corporation's Internal Controls
                              Fiscal Year 2002 - Management Letter


      Domestic Volunteer Service Act (DVSA) Grants

      We also noted that the service centers are not closing out DVSA grants in a timely manner as
      follows:

         Five of 39 grants were not closed within 180 days.

         Four of 39 grants were not yet closed, although they have exceeded 180 days.

          For one of the four grants that were not closed, there was no evidence that the Certification for
          Program Requirements was received or requested.

          For three of the four grant files reviewed, there was no evidence that a reconciliation of
          advances to expenses was performed.

      By not consistently performing closeout procedures, the Corporation risks not identifying excess
      amounts advanced to grantees that should be returned to the Corporation and not malung
      adjustments to the financial statements, if any are required, in the proper period.

      We recommend the Corporation:

          Develop a consistent method of identifying expired NCSA grants and enforce timely
          administrative closeout of these grants.

          Implement procedures to closeout most recently expired grants to avoid adding to the backlog
          from previous years.

          Develop timelines for the service center staff to request documentation required prior to the
          expiration date to ensure that grants are closed in a timely manner.
          Implement procedures to ensure that the issues identified by AFMS are logged and reviewed
          by a GMO senior official to ensure prompt resolution and timely closure. In addition, a copy of
          the approved closeout memo should be maintained in the grant closeout file.

A.4   Grant approval process should be improved

      On June 13,2001, the Corporation issued a new policy to permit programs to request approval for
      additional members for program years 2001 and 2002, not to exceed 20 percent of the original
      awarded national service positions, or ten members, to allow for an expected attrition rate. The
      policy was implemented with the understanding that if programs underestimated the attrition rate,
      which resulted in more members being enrolled than the approved budget allowed for, the program
      would be responsible for the living allowance costs in excess of the approved award. However, if
      the program underestimated the attrition rate, the corporation could still be responsible for the
      education award.




                                                                                                      (Continued)
                                                                                           APPENDIX A
               CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
               Recommended Improvements to the Corporation's Internal Controls
                                Fiscal Year 2002 - Management Letter


       Continuation of this new policy could result in the Corporation approving national service
       positions in any fiscal year in excess of the number of such positions for which there are sufficient
       funds in the National Service Trust for that same year.

       We recommend that the Corporation consider whether this policy should be continued in light of
       the difficulty in determining whether sufficient funds are available in the Trust to meet estimated
       costs, particularly on an ad hoc basis throughout the year as requests for approval of additional
       members are received.

National Service Trust

B.l    The process of reviewing Web-Based Reporting System (WBRS) Reconciliation Reports
       should be strengthened
       We noted that Trust Fund operation specialists had not reviewed WBRS Reconciliation Reports
       during fiscal year 2002 for three programs selected. As a result, we noted discrepancies identified
       for three members that were not adjusted in the SPAN database at the time of our review.

       Inaccurate information in SPAN could result in errors when future educational award payments are
       requested and in the computation of the Service Award Liability for financial statement purposes.

       We recommend that the Corporation emphasize the importance of the WBRS reconciliation
       process as a key control over the accuracy of the SPAN database. Further, we recommend that
       Trust Fund operation specialists document their review as evidence that the review was properly
       performed and to facilitate the discharge of their job responsibilities.

B.2    Member end-of-term forms are not always processed timely

       We noted that Program Directors processed eight of 30 non-VISTA members, and two of 30
       VISTA members' end-of term information more than 30 days after the member's effective
       termination date. The processing delays for two of the eight non-VISTA members exceeded 45
       days.
       Delays in processing members' exit information could impact the calculation of the Service Award
       Liability and related expenses.

       We recommend that the Corporation reemphasize to all Program Directors the importance of
       timely processing members' exit information within a 30-day period following member sign off
       and service completion date.




                                                                                                       (Continued)
                                                                                         APPENDIX A
              CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
              Recommended Improvements to the Corporation's Internal Controls
                              Fiscal Year 2002 - Management Letter


B.3   Certain members inappropriately received service awards

      Our test of the SPAN database included computer assisted audit techniques for the comparison of
      the enrollment date to the completion date for all members who earned service awards. As a result
      of these procedures, we noted that:

          Four members who completed service in less than 235 days earned a full-time award in fiscal
          year 2002.

          Fourteen members who completed service in more than 400 days earned a full-time education
          award in fiscal year 2002.

          One member who received a full-time award in fiscal year 2002 had not completed 15 percent
          of the minimum required service period.

      Additionally, we noted that for 38 members, the requested payment dates entered in SPAN,
      ranging from 2005 to 2043, were incorrect. These dates were not corrected in SPAN as of the
      completion of our audit test work.

      We recommend the Corporation periodically review the SPAN database to ensure that awards
      entered into the database are earned and requested within the appropriate time. Any exceptions to
      the time requirements should be followed up and resolved with the programs. Additionally,
      approval for extensions should be adequately documented and filed.

B.4   Overpayment of Education Awards

      During our computer assisted audit techniques, we noted that 46 members received overpayments
      totaling approximately $77,000.
      Additionally, we noted that interest forbearance amounting to approximately $14,000 was paid on
      behalf of one full-time member who had performed service for only 12 months. We found no
      evidence of approval by the Director of the National Service Trust.

      In order to ensure Trust funds are being disbursed appropriately and facilitate the Corporation's
      ability to obtain refunds if overpayments are made, we recommend that an independent review of
      payments be made to ensure the correct amounts are paid. Additionally, controls for overpayments
      should be improved to ensure refunds are pursued and recovered within a reasonable time.
B.5   The Corporation's methodology for calculating the Service Award Liability estimate needs to
      be reviewed

      Although the Corporation made certain modifications to the National Service Award Liability
      model during fiscal year 2002, based on our audit recommendation in the previous year, we noted
      that some of the assumptions used in the model continue to require review as follows:

          The model does not use historical data in determining the liability for the still active members
          expected to earn an award.

                                                      7                                             (Continued)
                                                                                          APPENDIX A
              CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
              Recommended Improvements to the Corporation's Internal Controls
                              Fiscal Year 2002 - Management Letter


         The model incorrectly calculates the weighted average distribution rate of award and interest
         forbearance outlays for age 0 and 1 of a program, because the embedded formula includes the
         artificially inflated usage rate related to the base year.

      Additionally, we noted that the Corporation had revised select automated outputs and manually
      adjusted the model for the following:

         The weighted average distribution rate of award outlays for age 8 of a program calculated by
         the model based on historical data and, utilized an anticipated budgeted rate which appeared
         understated based on the available program experience.

         Exclusion of the still active members who have not completed service or have not been
         removed from the National Service Trust database for program years 1994 through 1999 fiom
         the liability calculation.

      Failure to properly accrue for service awards and interest forbearance at year-end could result in
      the liabilities and related expenses to be understated. Additionally, the National Service Trust
      funding needs may be underestimated in the budget submission to Congress.

      We recommend the Corporation review the above assumptions in its National Service Award
      Liability model and use historical data, where available, to ensure that more reasonable estimates
      of the Service Award Liability and annual budget needs are calculated.

B.6   Improvements to Access Controls for the System for Programs, Agreements, and National
      Service Participants (SPAN) need to be completed

      The Corporation is converting SPAN security to Oracle software version 9i as well as the
      workstation operating system software to Microsoft Windows 2000. These changes provide a
      means to enable automatic workstation timeout mechanisms, and also provide the means to enforce
      mandatory password requirements. However, these software changes have been delayed by other
      priority work and were not yet accomplished for all workstations and users by the close of fiscal
      year 2002. For workstations and users who have not received the software upgrades, there is no
      automatic timeout or logoff mechanism of users in SPAN after a period of inactivity. Also, SPAN
      does not automatically force the initial password configuration for a new user to meet the password
      requirements of the Corporation Network and Computer Security Policy.

      It is recommended that that this work be given sufficient priority to be completed during fiscal year
      2003.

B.7   Database Integrity for SPAN periodically needs systematic review
      The specific data errors noted during the computer assisted audit techniques that were done during
      fiscal year 2001 appear to have been corrected; however, new examples of data errors were
      observed during the current year's testing. These errors were provided to Corporation personnel for
      further analysis. Inaccurate information in SPAN could result in errors when future educational


                                                                                                     (Continued)
                                                                                            APPENDIX A
               CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
               Recommended Improvements to the Corporation's Internal Controls
                               Fiscal Year 2002 - Management Letter


       award payments are requested and in the computation of the National Service Award Liability for
       financial statement purposes.

       It is recommended that automated techniques be periodically used to systematically review the
       database. It is also recommended that an analysis of data errors that were uncovered be done to
       ascertain if new software edits or other types of software controls are warranted.

Accounts Receivable and Other Interest Revenue

C.1    The Corporation's methodology for aging receivables needs to be reviewed

       The Corporation's methodology for aging receivables should be reviewed to ensure that delinquent
       debts are identified and closely monitored to ensure compliance with the Debt Collections
       Improvement Act of 1996.

       As noted in prior years, although the Corporation bills cost share agreements to sponsors on a
       quarterly basis, the Corporation does not communicate with the sponsors regarding any
       delinquencies until after the end of the agreement period. Such receivables are not considered
       delinquent until two demand letters have been sent. Thus, no interest and penalties are assessed on
       delinquent cost share agreements until 90 days after the date of the final invoice, when interest is
       retroactively calculated as of the 60" day after final invoicing. For instance, the first quarter
       billings of a one-year cost share agreement would be twelve months old before being classified as
       delinquent.

       The Corporation also does not commence the aging of receivables for cost share agreements until
       the final date of invoicing. Thus, the first quarter billings of a one-year cost share agreement would
       be nine months old before the Corporation starts to count the number of days outstanding for the
       purpose of calculating the allowance for doubtful accounts (i.e., the date of final invoicing is
       considered "day one7'for aging purposes).

       We continue to recommend that the Corporation review and revise its cost share accounting
       policies to use the due date specified on each invoice as the "begin date" for aging of receivables
       and assessing penalties and interest.

Budgetary Resources and Net Position
D.l    SF 133 Reporting should be improved
       During our audit, we noted that the information reported by the Corporation on the final fiscal year
       2002 SF 133 submitted to the Office of Management and Budget (OMB) did not agree with the
       audited financial statements as follows:

           There was a difference of $47 million between the amounts reported on line 14 C
           "Undelivered Orders" on the final SF 133 and those reported in the Corporation's general
           ledger. The grant accrual entry for $47 million was not posted until after the general ledger
           was closed, hence this was not reported on the final SF 133 submitted to OMB.


                                                                                                       (Continued)
                                                                                         APPENDIX A
              CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
              Recommended Improvements to the Corporation's Internal Controls
                              Fiscal Year 2002 - Management Letter


          $379 million that was included in general ledger account No. 4972 "Downward Adjustment
          from Prior-Year" was reported on line 15A "Disbursements" instead of line 15B "Collections"
          on the SF 133.

      Additionally, we noted that the final SF 133 was submitted to OMB after approval by the staff
      accountant, and contained no evidence of review and approval by the budget officer or the Director
      of Accounting.

      We recommend that the Corporation develop a process to estimate the grant accrual on a timely
      basis to ensure that adjusted balances are reported in the SF 133. Additionally, a more thorough
      review by the Director of Accounting of the SF 133 is required to ensure that balances are reported
      in accordance with Treasury's crosswalk. The SF 133 should be signed as evidence of the review.

Compliance with Laws and Regulations

E.l   Procedures should be established to monitor compliance with NCSA Subsection 129 (b) (42
      U.S.C. 12581 (b))

      NCSA Subsection 129 (b) (42 U.S.C. 12581 (b)) stipulates that AmeriCorps*Vista and
      AmeriCorps*NCCC members should receive priority funding for their post-service education
      benefits. During our audit, we noted that no procedures have been established by the Corporation
      to ensure that funds are set-aside for AmeriCorps*Vista and AmeriCorps*NCCC members.
      Additionally, during fiscal year 2002, we noted that the Corporation did not perform the
      "reservation" of approved positions procedure required under Subsection 129 (b).

       We recommend that the Corporation implement procedures to ensure that the AmeriCorps*Vista
       and AmeriCorps*NCCC members receive priority funding.

Human Resources
F.l    Reliance cannot be placed on automated controls for VISTA volunteer payments
       Requests that are sent to Treasury to disburse payments to VISTA volunteers are not handled in the
       same way as other Corporation disbursement requests. The Momentum system is not used to
       generate the payment requests. Momentum is only used to record corresponding summary level
       accounting information. VISTA payment request data destined for Treasury is extracted from the
       SPAN system into Microsoft Word files on a workstation, reviewed, edited and then copied
       manually to a Corporation fileserver located at the Department of the Interior National Business
       Center (NBC) located in Reston, VA. After operators at NBC are notified via e-mail that the
       payment request file has been placed on the server, they initiate an automated process that
       forwards the data to Treasury for the actual disbursement. Subsequent to sending the payment
       request to Treasury, Corporation staff make the corresponding summary level accounting entries
       into Momentum. The typical delay between the time the payment request is sent to Treasury and
       the time the accounting entries are made is two days.




                                                                                                    (Continued)
                                                                                         APPENDIX A
              CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
              Recommended Improvements to the Corporation's Internal Controls
                              Fiscal Year 2002 - Management Letter


      Because there is manual access to the payment request data after it leaves the SPAN system and
      before it is transmitted to Treasury, automated system controls cannot be relied upon to ensure the
      integrity of the data. The manual process for making the accounting entries and the asynchronous
      timing of the entries present opportunities for error. Although we did not identify any specific
      problems in the Corporation's manual compensating controls (i.e., the reconciliation process), the
      manual and summary nature of the reconciliation process with Treasury leaves opportunity for
      possible errors to go undetected.

      We recommend that the compensatory manual controls over this process be periodically reviewed
      by management, and that the payment process be automated end-to-end with appropriate controls
      as soon as practicable.

General EDP Controls Review

G.l   Procedures should be established for the Performance of Risk Assessments

      The Corporation conducts periodic risk assessments in conjunction with re-accreditation of its
      information systems. However, it does not have documented procedures for how the risk
      assessments are to be performed. The Corporation has relied on the professional judgment of the
      contractor performing the risk analysis as to the scope of the risk analysis and what steps the risk
      analysis will entail. The risk assessments that the Corporation has had performed omit a business
      impact analysis, and have also only focused on information technology issues related to an
      individual system. They do not consider entire business transaction processes and the risks inherent
      in transferring data between systems using a variety of manual and semi-automated techniques.
      Because several of the Corporation's systems lack electronic system-to-system interfaces, and the
      risk assessments have only gone as far as the system boundaries, the information that Corporation
      management has received concerning business risks is artificially circumscribed by the technology
      employed.

       We recommend that the Corporation establish specific procedures and criteria for the performance
       of risk assessments. Additionally, the risk assessments should take a multi-system approach
       whenever the business transaction processes involve more than one system, including the systems
       of service providers and business partners.

G.2    The Business Continuity and Contingency Plan (BCCP) should be updated and tested
       The Corporation's Business Continuity and Contingency Plan (BCCP) has not been updated or
       tested since 1999 when it was prepared for Y2K. Significant changes have occurred for all of the
       Corporation's information systems since the Business Continuity and Contingency Plan was
       developed.

       We recommend that the Business Continuity and Contingency Plan be updated to reflect changes
       that have occurred in procedures and responsibilities.




                                                                                                    (Continued)
                                                                                           APPENDIX A
              CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
              Recommended Improvements to the Corporation's Internal Controls
                               Fiscal Year 2002 - Management Letter


G.3   Specific policies, procedures and controls should be established for transactions that flow
      across multiple systems

      The Corporation's information technology (IT) policies and procedures related to application
      systems, tend to be vertically oriented, and do not systematically cover situations in which data
      transactions flow across multiple systems and organizations, especially when they involve external
      service providers.

      We recommend that the Corporation establish explicit IT policies and procedures for access
      control and maintenance and verification of data integnty for significant classes of transactions that
      flow across multiple systems and organizations, especially when they involve external service
      providers. These would be particularly important in cases where the data from one system is
      manually rekeyed into another system. (See example at F. 1. above.)
                                      Corporation for        n                        APPENDIX B




MEMORANDUM

DATE:         April 3, 2003

TO:            Daniel Lybert, Assistant Inspector General for Audit

FROM:                                 of Accounting

SUBJECT:       Comments on Draft Fiscal 2002 Management Letter (OIG Report 03-02)


The Corporation has reviewed the draft management letter containing suggestions for improving
its internal controls and is pleased to note that the report shows continued improvement in this
area. The Corporation's response to each of the issues discussed in the management letter is
provided below. In addition, the Corporation has completed action on 16 of the 18 issues
included in the report; therefore, this response serves as notice of final action for those items.

Grants Managem en t
A.l     Oversight of OMB Circular A-133 Reporting
The Corporation tracks management decisions and final resolutions on A-133 audits in an
Access database. This database will be replaced by eGrants, which is currently being
implemented for all Corporation grant programs. eGrants will be the system of record for all
application, review, monitoring and closeout processes related to grants. Once eGrants is fully
implemented, paper files will be discontinued. Grant applications will be received and reviewed,
awarded, monitored and closed out in the new system. Grants officers will also use the system to
record their annual review of an organization's A-133 audit as they prepare to make grant
awards. In addition, if a grantee has findings related to the A-133 audit, Corporation staff will
indicate that in the eGrants system by placing a "red flag" in the database that is then associated
with all grants to the organization. This alerts other staff that may be considering a new or
continuing award to the organization to check with the appropriate grants officer before making
any decisions on the award. The Corporation trained grants and service center staff on the new
systems last summer and fall and conducted a comprehensive A-133 audit resolution training in
December 2002. We also plan to provide guidance to Commission and National Direct staff on
A-133 processes at the next grantee technical assistance meeting. [Corrective Action
Completed]

In conjunction with the implementation of the new systems, the Corporation is revising its grants
management policies and procedures. The new policies will include procedures to track whether
grantees for which the Corporation has oversight responsibilities are submitting A-133 audit
reports to the Federal Audit Clearinghouse in a timely manner. The revised policy will maintain
our current policy regarding the circumstances under which the Corporation may add a condition


                              1201 New York Avenue, NW   *
                                                         Washington, DC 20525
                                    202-606-5000 4 www.nationalservice.org
                            Senior Corps * AmeriCorps   * Learn and Serve America            The Presldeds Call lo ~ c r & c
                                                                                       APPENDIX B


to a grant if an A-133 audit is not on file at the Federal Audit Clearinghouse. For example, most
of the Corporation's AmeriCorps funds are awarded to state commissions. State commissions are
usually audited as part of one audit of all federal funds received by the state. The commission is
not responsible for completing and submitting the audit. As a result, the Corporation does not
penalize the commissions if the state does not submit its audit in a timely manner. In other
circumstances, particularly when the Corporation is the oversight agency, we will add a
condition to the award and will place funds on hold if the audit is not submitted within a
specified amount of time.

The report also suggested that the Corporation follow-up on findings contained in an A-1 33 audit
as part of the Commission Administrative Standards Review process and document the
resolution in the Executive Summary Report prepared after the Standards Review. The
Corporation does not agree. The Commission Administrative Standards Review is conducted by
a team of outside consultants and program staff and is only conducted once every three years.
The Corporation's established policies and procedures for A-1 33 review and follow-up require
annual review and make it the responsibility of grants office and service center staff. Since
Administrative Standards Reviews are only conducted every three years, they are not an
appropriate vehicle for A-133 review and follow-up. [Corrective Action Completed]

A.2    Site Visit Report Monitoring
The auditor's findings involved the timeliness of providing site visit reports to grantees and
receiving any necessary corrective action plans needed based on site visit findings from grantees.
In almost all of the exceptions noted in the audit, while the 15 or 20-day targets were not met, the
reports were sent to the grantees within 6 weeks. The Corporation agrees with the auditors that
we need to re-emphasize the importance of issuing site visit reports to grants on time and make
sure they prepare corrective action plans according to timelines. We have done so. We have
established policies and procedures related to grant monitoring and site visits which include
guidelines for timely reporting. Both the Grants Office and the Area Managers who oversee
offices responsible for Senior Corps monitoring have re-emphasized the importance of timely
reporting.

In addition, with the implementation of eGrants all site visits for all programs are tracked
through one central system that allows us to monitor timeliness and provide notifications of due
dates for reporting. This standard and centralized system will be used to log all compliance
monitoring tracking information, including grantee, date completed, date planned, staff
conducting. This centralized data collection tool will eliminate multiple data points, as well as
the possibility of introducing new errors at each point. Also we are taking the following specific
steps:
        Area Managers will schedule internal reviews to specifically verify that compliance site
        visit protocols and timelines are followed;
        Area Managers will adopt more rigorous processes to engage cluster staff in compliance
        monitoring visits and will verify the status on a regular basis.
        Service Centers will participate in compliance monitoring visits when needed to support
        Area Managers and program staff.
The Corporation's monitoring of State Commissions is accomplished through the State
Commission Administrative Standards Reviews. Overall, the findings cited involved timeliness
                                                                                     APPENDIX B


of steps in the Standards Review process. All Standards Review Reports have now been
completed. The standards themselves and the processes are being revised and refocused in the
coming months. As part of that development, we will establish reasonable timelines for future
processes and assure adherence to them through reports to senior management. [Corrective
Action Completed]

A.3    Grant Closeout Procedures
The Corporation agrees that we must enforce timely close out of grants and will be able to do so
more effectively once we get rid of the backlog of expired grants. Our policies and procedures
provide specific timelines for closeout and, over the last year, we have made substantial progress
in closing out grants. However, we are still catching up with the extensive backlog and expect
the backlog to be closed by the end of the year. We have implemented new systems that will
help avoid adding to the backlog. Over the next year, as all grants are converted to the eGrants
system, the closeout process will be simplified. Currently, the Corporation must conduct a
reconciliation between its grants database, the Corporation accounting system and the HHS
Payment Management System during the close out process. Frequently the accounts do not
reconcile or the Corporation must await HHS or grantees correction of a reconciling item. Once
eGrants is in place that reconciliation will be fully automated and closeout will be greatly
simplified. Through this system, the Service Center staff will also be able to set up automatic
notifications when closeout documentation is due that provide alerts to state office staff to
prepare and submit required documentation.

We have also established new procedures to ensure that we follow up with the accounting staff if
outstanding balances remain when grants are closed. The senior staff responsible for closeout
prepare memos to AFMS when a grant is closed and AFMS returns the memo noting the action it
has taken. The senior staff now review each returned memo and alert staff to any outstanding
issues they need to address. We have a staff person now identified in AFMS with whom we
work directly to resolve the issues. [Corrective Action Completed]

A.4    Grant Approval Process
In June 2001, the Corporation implemented a policy to permit programs to enroll more members
than were originally awarded to the program because, based on program experience, over-
recruitment and enrollment were necessary for the program to achieve full (or near full)
enrollment after member attrition occurred. Because of the need to improve management
controls over the number of education awards committed to members, the Corporation rescinded
this policy in January 2003. In addition, the Corporation has instituted a process to report
enrollment data to the CEO and CFO on a bi-weekly basis. [Corrective Action Completed]


National Service Trust
B.l    Web-Based Reporting System (WBRS) Reconciliation Reports
We agree that the reconciliation report process is a key control over the accuracy of the database.
In the summer of 2002 the Director of the Trust changed the requirement for the frequency of the
review from annually to quarterly. Cluster representatives have been instructed to document
these quarterly reviews. This documentation should include the corrective action neededltaken,
                                                                                    APPENDIX B


identification of discrepancies, date of the quarterly review and a print out of both WBRS and
SPAN rosters. During the audit three exceptions were noted that were not resolved in a timely
manner (out of a universe of 880 programs). The Director of the Trust has reemphasized with
Trust staff the need to complete these reconciliations in a timely manner. In addition, the
Corporation has established a procedure to reconcile WBRS enrollment data with SPAN on a
monthly basis. The results of the reconciliation will be reported to the CFO. [Corrective Action
Completed]

B.2    Member End-Of-Term Form Processing
We concur with this recommendation. The relevant Corporation program offices at Headquarters
will reemphasize to the state offices, commissions and AmeriCorps programs the importance of
timely processing of member exit information. Any extenuating circumstances which prevent
the timely exit of members (within 30 days of the member's completion date), should be
documented in WBRS by the program.

B.3    Member Service Award Payment Processing
We completed our own review of the exceptions that the auditors cited in this finding. The
report states state that 14 members completed service in more than 400 days. We found that this
number is incorrect due to the fact that the auditors did not take member suspensions and
reinstatements into account. All of these members had service time that was 365 days or less. In
addition, WBRS has a control that does not allow full time members to serve more than 365
days. All of these members were downloaded from WBRS.

We also found that the member listed in the exceptions as not having completed 15% of the
minimum required service period, did complete the full service time. This VISTA member
served from July 20, 2001 until July 19, 2002, which is 365 days.

The finding states that there are 39 members from program year 1994 who received payments in
2002, after more than seven years from completion of their service. This is incorrect. Our
research revealed that for thirty-six of the exceptions cited the Education Award payment had
been schedule dates which were within seven years of the actual completion date. For the
remaining three exceptions, the payments were to members who had requested and received an
extension on the use of the Education Award prior to the expiration of seven years.

Four members were listed in the finding as having completed service in less than 235 days but
earned a full award. Our review revealed that two of the four exceptions appropriately earned
an award under the Corporation's personal compelling circumstance provisions (both members
had served more than the 15% as required). The other two members completed the 1,700 hours
of service to earn a full award, but did so in less than 235 days. In July 2002, a control was
implemented in WBRS to ensure that full time members serve a minimum of 9 months before
being eligible for a full award. These two members had completed service prior to the
implementation of the control. [Corrective Action Completed]
                                                                                         APPENDIX B


B.4    Review of Education Award Payments
The finding asserts that one member was paid an interest amount of $13,866.23, and the payment
was not adequately reviewed. Two Trust staff members independently reviewed this amount
before the payment was made. There is not a dollar limitation on the amount of monies that the
Trust can pay for interest forbearances. Appropriate controls are in place to ensure that funds are
disbursed appropriately.

Due to inherent problems with the issuance of manual checks to thousand of institutions in the
U.S. and internationally, circumstances occur where checks are lost in the mail, damaged, or
improperly applied by the intended payee. Occasionally, these circumstances place our members
in difficult positions and require the Trust to issue interim replacement or duplicate payments.
On the surface, these payments can appear to be in excess of the member's award balance.
However, SPAN also reflects the payment as a duplicate or replacement check. Moreover, if we
determine that the original check is outstanding the Trust will request that the U.S. Treasury
cancel the check and a credit is issued accordingly. However, if it is determined that both checks
have been honored by Treasury and paid to an institution, the Trust seeks to recovery these
funds. Controls and required authorizations are also in place to limit the number of replacement
and duplicate checks. [Corrective Action Completed]

B.5    Service Award Liability Methodology
The Corporation utilizes a model developed by PriceWaterhouseCoopers and reviewed by
KPMG to estimate anticipated education award, interest forbearance, and President's Freedom
Scholarship payments from the National Service Trust Fund. The resulting liability estimate is
used to prepare the Corporation's quarterly and annual financial statements and to project outlays
and funding requirements of the Trust. The model calculates these estimates using historical
trends in the ArneriCorps program including:

       enrollment level (number of members expected to be enrolled in a given program year);
       distribution of enrollment type (e.g. full time, part time, reduced part time);
       number of members who earn an education award;
       the average award amount earned by enrollment type;
       number of enrollees who drop out before earning an award (attrition rate);
       how much of the education award will be used (recognizes that not all education awards
       earned will be used);
       when a member will use an award (e.g. in first, second . . . or seventh year after earning
       the award);
       the distribution of Trust investments by type (percentage invested in Treasury bills and in
       Treasury notes or bonds); and
       projected interest earnings on the Trust balance.

Using these and other factors, the model estimates the Corporation's total liability at a specified
point in time (either quarterly or annually) for all members enrolled and eligible to receive an
award (those that have served at least 15% of a term of service). The model also allows for
manual inputs to adjust those factors where there is insufficient historical data (e.g. there is only
one "age 8" for the program, thus little data on which to determine a trend).
                                                                                      APPENDIX B



Each year the Corporation reviews and updates the model based on the best available current
information, including suggestions resulting from its annual financial statement audit and will
continue this practice in the future. [Corrective Action Completed]

B.6    System for Programs, Agreements, and National Service Participants (SPAN)
Access Controls
The Corporation has made significant progress on the Windows 2000 rollout and expects to
accomplish this by December 2003. To complete this process the Corporation will require one
additional yearly computer purchase that will not occur until the end of the current fiscal year.
The upgrade of eSPAN to version 9i of the Oracle software will be completed in the second half
of fiscal year 2003.

B.7    SPAN Database Integrity
The Corporation reviewed the errors cited by the auditors and determined that all but two of the
137 items were not exceptions. In the case of the two exceptions found, an edit check was
established in WBRS to prevent the entry of erroneous data. The Corporation will continue
review the controls in WBRS and incorporate specific edits suggested during the annual financial
statement audit. [Corrective Action Completed]


Accounts Receivable and Other Interest Revenue
C.l    Accounts Receivable Aging Methodology
Corporation Policy Number 801, AmeriCorps*VISTA Cost Share Agreements, was issued by
the AmeriCorps*VISTA office on March 22,2001. The terms of the cost share agreements
clearly state that payments shall not be considered delinquent until 90 days after the end of the
agreement period and interest and penalties will be assessed only after the final invoice becomes
delinquent. The Corporation enters into cost share agreements with many small sponsors that
receive funding of an intermittent nature; this type of arrangement for annual payment is
considered more appropriate for these sponsors than requiring quarterly payments. However,
for fiscal 2003 year-end financial statement preparation purposes, the Corporation will age all
receivables according to the invoice date. [Corrective Action Completed]


Budgetary Resources and Net Position
D.l    SF133 Reporting
The Corporation disagrees with this finding. The SF 133s are compiled automatically by the US
Department of Treasury FACTS system from data in the Corporation's general ledger
(Momentum) in accordance with Treasury requirements. The differences cited in this finding are
related to auditor and financial statement accrual entries and are not required on the FACTS
submissions as they are not budgetary entries. Estimates for such entries made before the fact
would be considered unnecessary and a duplication of effort. However, as the Corporation
accelerates the preparation date for its financial statements, il will work with Treasury to
determine if such accruals are appropriate to include in the future. In addition, the FACTS
                                                                                      APPENDIX B


submission cited in the finding was reviewed and certified by the Director of Accounting and is
evidenced by an electronic signature. [Corrective Action Completed]


Compliance with Laws and Regulations
E.l    Monitoring Compliance with NCSA Subsection 129(b)(42 U.S.C. 12581(b))
Subsection 129(b) applies to approved national service positions, that is, positions for which an
education award is one of the benefits for successful completion of a term of service. This
provision requires that members enrolled in VISTA and NCCC approved national service
positions receive priority for education awards over members enrolled in Staternational
approved national service positions. However, this provision does not direct any particular
allocation of approved national service positions for the three AmeriCorps categories. In other
words, this priority applies only after the Corporation has approved national service positions.

The Corporation established new procedures to ensure that AmeriCorps staff takes Trust funding
needs into account and do not exceed the projected number of positions in making grants for
ArneriCorps programs. These procedures include requirements for AmeriCorps to include an
estimate of the number of positions that would result from a grant award and to track and report
enrollment information to the Chief Executive Officer and Chief Financial Officer on a bi-
weekly basis. These procedures have been provided to the Office of Inspector General.

The November 2002 enrollment pause obviated the need to apply the priority in subsection
129(b). These new procedures are designed to avoid having to take such a step in the future.
Therefore we believe that the new procedures are sufficient to ensure that all approved national
service positions in VISTA and NCCC are fully funded in the National Service Trust - which
achieves the objective set forth in subsection 129(b). [Corrective Action Completed]


Human Resources
F.1    VISTA Volunteer Payments
The Corporation uses its SPAN subsidiary system, which has detailed information on individual
members, to generate the Payment Files (Tcheck) for VISTA stipends on a bi-weekly basis.
Summary data from the Tcheck file is used to update the general ledger (Momentum). These bi-
weekly payment files are reconciled (which includes checking and reviewing data to ensure the
proper payment to members) and transmitted to the NBC data processing center. Once the
SPAN "Tcheck" process is run and the payment file generated no changes are made to the file.
NBC transmits the file to Treasury for payment via ECS. The ECS payment process from the
Corporation to NBC and then to Treasury is the same process as all payments from the
Corporation. The subsequent posting of the SPAN summary to Momentum within two days is
within current guidelines. The Corporation has concluded that the current process is accurate
and secure, but will review the practicality of developing an automated interface for the
transmission of data from SPAN to Momentum. [Corrective Action Completed]
                                                                                   APPENDIX B


General EDP Controls Review
G.l    Risk Assessments
The Corporation's Risk Assessments follow a proscribed methodology. This methodology is
laid out in both OMB A-1 30 Management of Federal Information Resources and NIST S P 800-
30 Risk Management Guide for Information Technology Systems. Within both of these
documents the scope and steps of the risk analysis are defined and include business impact
analysis and the interfaces of our systems. [Corrective Action Completed]

G.2    Business Continuity and Contingency Plan
The Business Continuity and Contingency Plan was updated as part of our most recent
Accreditation project. The new plan has an issuance date of January 13,2003 and is being
incorporated into our Security Program where it will become an element our Disaster Recovery
Plan and tested as part of our yearly disaster recovery testing. [Corrective Action Completed]

G.3    EDP System Interface Controls
In processes where its systems exchange data with other Federal agencies the Corporation uses
established controls for transferring data between the systems. These controls dictate the
procedures to be followed when transferring data and establish parameters for the actual data.
These controls are detailed within the system specifications and are used as part of the data
validation scheme. [Corrective Action Completed]

cc:    Michelle Guillermin
       Bill Anderson
       Tom Hanley
       Norm Franklin
       Colleen Lama
       Jeff Page
       Peg Rosenberry
       Simon Woodard
       Service Center Directors
                                                                                   APPENDIX C
               CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
              STATUS OF PRIOR YEAR MANAGEMENT LETTER COMMENTS
                          Fiscal Year 2002 - Management Letter


I Fiscal Year 2001 Management Letter Comment                      Fiscal Year 2002 Status



                     of OMB Circular A-133 Reporting should be Repeated. See fiscal year
 improved.                                                     2002 MLC A. 1.

                      of grantee financial activity should be Closed
 improved.



rA.4
          Grantee sight visits should be improved.                Repeated. See fiscal year
                                                                  2002 MLC A.2.

        The Corporation is not properly maintaining and utilizing Included as a component of
 the NSSC Compliance Monitoring database.                         the fiscal year 2002 grants
                                                                  management        reportable
                                                                  condition.



 B.l     The process of reviewing WBRS Reconciliation Reports Repeated. See fiscal year
 should be improved.                                          2002 MLC B. 1.

                    end-of-term forms are not always approved Repeated. See fiscal year
 timely                                                       2002 MLC B.2.

                Corporation's Methodology for calculating the Repeated. See fiscal yea1
    Service Award Liability needs to be reviewed.             2002 MLC B.5.

                     members inappropriately received     service Repeated. See fiscal year
    awards.                                                       2002 MLC B.3.

IHuman Resources



I   C.l     Controls over payment of subsistence to VISTA members Closed
    should be improved.

I   C-2
          VISTA member files are incomplete.                       Closed

                       information is entered into VMSISPAN for Closed
    VISTA members.




                                                                                                 (Continued)
                                                                                  APPENDIX C
              CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
             STATUS OF PRIOR YEAR MANAGEMENT LETTER COMMENTS
                         Fiscal Year 2002 - Management Letter



    Fiscal Year 2001 Management Letter Comment                    Fiscal Year 2002 Status

I Revenue from Reimbursable Apreements
I           Demand letters are not consistently sent on delinquent Closed
    D.l
    receivables.

    D.2     The Corporation's methodology for aging receivables Repeated. See fiscal year
    needs improvement.                                          2002 MLC C. 1.

If  In ormation Technoloa,

                                 for continued improvements in the Repeated. See fiscal year
    electronic processing of financial transactions.               2002 MLC B.6, B.7 and F.l

    E.2    Lack of proper access controls for WBRS.               Closed
